                                                 
                                                 
                                        Testimony of

                        THE HONORABLE TODD J. ZINSER
                                INSPECTOR GENERAL
                             U.S. DEPARTMENT OF COMMERCE



                                     before a hearing of the



                Subcommittee on Communications and Technology
                        Committee on Energy and Commerce
                        United States House of Representatives


                               Thursday, February 10, 2011




                          ARRA Broadband Spending

Chairman Walden, Vice Chair Terry, and Members of the Subcommittee:


We appreciate the opportunity to testify today about the current status of the Broadband

Technology Opportunities Program (BTOP) and the Office of Inspector General’s (OIG’s)

oversight efforts on this important program.
Status of the Broadband Technology Opportunities Program (BTOP)


On February 17, 2009, the President signed the American Recovery and Reinvestment Act of

2009 (Recovery Act) into law, 1  which provided the National Telecommunications and

Information Administration (NTIA) approximately $4.7 2 billion to establish BTOP. This

competitive grant program provided funds for deploying broadband infrastructure in unserved

and underserved areas of the United States, enhancing broadband capacity at public computer

centers, improving access to broadband services for public safety agencies, and promoting

sustainable broadband adoption projects.


Our testimony this morning, almost two years after the passage of the Recovery Act, will focus

on the progress and status of the program, particularly NTIA’s efforts to advise and monitor its

grants recipients—which necessitate that NTIA take a lead role in monitoring recipients’

program compliance and timeliness, as well as detect suspected fraudulent activity—and OIG’s

role in overseeing NTIA’s program administration. This morning’s testimony is based on our

ongoing BTOP oversight efforts, including compliance and fraud training that we have

provided—all of which we detail in the Appendixes.


With this newly established program, NTIA confronted numerous challenges to implementing

BTOP. These included:


        •      Staffing a new program office from scratch, conducting program outreach on the

               program’s objectives, and developing grant rules and processes.



                                                            
1
  Pub. L. No. 111‐5, § 6001 (2009). 
2
  Congress later rescinded $302 million from BTOP funding, per Pub. L. No.111‐226, § 302, 124 Stat. 2404 (2010), in 
part to offset the funding of the $10 billion Education Jobs Fund. 

                                                               2 
 
    •   Conducting two rounds of reviewing more than 2,800 grant applications, performing due

        diligence on submitted applications, and making awards—in making awards, NTIA

        focused on areas defined as unserved or underserved with respect to broadband

        coverage, took into consideration recommendations from states’ governor offices, and

        awarded at least one grant in each state.

    •   Enlisting assistance from other agencies—which included establishing agreements with

        the National Technical Information Service to provide information technology support

        for processing applications; the National Oceanic and Atmospheric Administration and

        National Institute of Standards and Technology to provide grants management; the

        Department of Interior to procure program support for project implementation; and the

        Federal Communications Commission to provide technical assistance to develop a

        broadband map.

    •   Contracting with a vendor for program support—by entering into a $99 million contract

        with Booz Allen Hamilton to provide program administration, application review,

        communications and outreach, grants administration, post-award technical assistance,

        and management support; about $21 million remains on the contract to help monitor

        awards and provide IT support.

    •   Awarding $4.2 billion in grants—all beginning in February 2009 and culminating in the

        last grant award in September 2010. NTIA awarded 232 BTOP grants worth

        approximately $3.9 billion; as required by BTOP, recipients agreed to match federal

        funds with $1.4 billion, resulting in a total broadband investment of $5.3 billion; also,




                                                    3 
 
               NTIA awarded 56 state mapping awards 3 worth approximately $300 million, with

               recipients providing $76 million in matching funds.


The BTOP awards were made in three major areas: program infrastructure, which included some

awards targeting public safety; public computer centers; and sustainable broadband adoption.


       •      Program infrastructure awards represent broadband projects that will provide new or

              improved broadband services (e.g., laying new fiber optic cables or upgrading wireless

              towers), utilizing the latest broadband access technology, to consumers in underserved or

              unserved areas in the country. This infrastructure will connect anchor institutions (e.g.,

              schools, libraries, and medical facilities) with internet connectivity. Among these

              projects, NTIA awarded 7 grants totaling approximately $382 million for projects to

              deploy interoperable public safety networks.

       •      Public computer center awards will establish new public computer facilities or upgrade

              existing ones to provide broadband access to the general public or specific populations,

              such as low-income individuals, the unemployed, seniors, children, minorities, and

              people with disabilities.

       •      Sustainable broadband adoption awards fund projects focused on increasing broadband

              Internet usage and adoption, including among specific populations where broadband

              technology traditionally has been underutilized. Many projects include digital literacy

              training and outreach campaigns.




                                                            
3
  Since the program’s inception, NTIA has awarded a total of $293 million to 56 grantees, one each from the 50 
states, 5 territories, and the District of Columbia, or their designees. Grantees will use this funding to support the 
efficient and creative use of broadband technology to better compete in the digital economy (Broadband USA, 
“State Broadband Data & Development Program,” NTIA website; see http://www2.ntia.doc.gov/SBDD). 

                                                               4 
 
BTOP represents the largest and most complex grant program NTIA has ever overseen. The

grant awards went to a diverse group of recipients, and conditions surrounding the awards

themselves vary widely. Recipients included public entities, nonprofit organizations, tribal

entities, and for-profit companies. BTOP represents the first grant program where NTIA has

awarded funds to for-profit companies, which represent approximately 20 percent of BTOP

awards. The experience levels of the award recipients vary widely: some have extensive federal

grant experience while others are first-time federal award recipients. (Table 1 provides an

overview of the BTOP awards.)


                                      Table1. BTOP Grant Award Composition

                                  AWARD TYPE                                                         RECIPIENT 

                                                              #               $                                          
    Infrastructure                                          116            $3.1 bil    Government                     89 
    Public Safety 700 Mhz Infrastructure                     7            $382 mil     Nonprofit                      58 
    Public Computer Center                                   65           $200 mil     For Profit                     55 
    Sustainable Broadband Adoption                           44           $251 mil     Higher Education               25 
                                                            232           $3.9 bil     Tribe                          5 
                                                                                                                     232 
                                                                                                                         
                                DOLLAR AMOUNT                                                      OTHER INFO 
    >$100 Million                                                    5                 Largest Award1          $  154,640,000  
                                                                                                        2
    $25 Million‐$100 Million                                        46                 Smallest Award          $          176,400  
    $10 Million‐$25 Million                                         42                                          
    <$10 Million                                                   139                                          
                                                                   232                                          

    1
      The largest BTOP grant is a $154,640,000 award to Los Angeles Regional Interoperable Communications System Authority 
    (LA‐RICS) to deploy a 700 MHz public safety mobile broadband network across all of Los Angeles County.   

    2
       The smallest BTOP grant is a $176,400 award to the Santa Fe (New Mexico) Civic Housing Authority offering broadband 
    access and computer training to low‐income families, minorities, and disadvantaged youth as well as disabled and elderly 
    Santa Fe residents. 
     
    Source: OIG, derived from operating unit data 

                                                                   5 
 
     


As a result of the unique and diversified nature of this grants program, NTIA staff will need to


        •   track the recipients’ compliance with grant terms and conditions;


        •   review quarterly reports on program expenses (financial reports), quarterly Recovery Act

            reports (including identification of subrecipients and contracts and the number and types

            of jobs created), and project performance information (such as number of new network

            miles deployed and number of new public computer centers, found in BTOP program

            performance reports);


        •   evaluate how well recipients monitor any award subrecipients; and, most importantly,


        •   ensure that recipients remain on track to deliver the broadband capabilities to which they

            have committed.


NTIA also must closely observe how its awardees manage the often complex process of drawing

down federal funds. As of December 31, 2010, $3.9 billion had been awarded in BTOP grants

between December 2009 and September 30, 2010 (the required end date of awarding BTOP

funds). However, only 4 percent of obligated funds had been disbursed. (Figure 1 contrasts spent

funds and obligated funds.)


 




                                                     6 
 
                            Figure 1. Spent Funds vs Obligated Funds




Source: OIG, derived from operating unit data 


The potential for fraud, waste, and abuse will increase substantially over the next 5 years as

spending by BTOP grant recipients rises. The uncertainty regarding NTIA oversight funding for

FY 2011 and beyond raises significant concerns for the Department about the adequacy of future

BTOP oversight.


OIG Oversight to Date


Of the Recovery Act programs managed by the Department’s operating units, NTIA’s BTOP

presents the largest risk. As such, the OIG initiated proactive oversight of BTOP immediately

after the passage of the law, including:


    •   providing guidance to NTIA on the importance of establishing appropriate internal

        controls;




                                                 7 
 
       •      participating in pre-award workshops briefing potential applicants about compliance

              requirements and the Recovery Act’s accountability and transparency goals;


       •      leading post-award workshops briefing recipients on the need for compliance with terms

              of the award and on fraud prevention; and


       •      training sessions to BTOP staff and recipients on specific topics such as concerns

              associated with first-time recipients and subrecipient reporting.


(See Appendix A for a chart enumerating OIG’s outreach efforts, for both NTIA-specific training

and programs Recovery Act-wide.)


One important way agencies monitor grant recipients is ensuring the recipients comply with the

Single Audit Act, 4 which requires certified public accountants to complete an independent audit

of recipients’ financial statements and review internal controls and compliance with federal

award requirements. To improve on this existing process, OIG has helped NTIA develop a

compliance supplement and a for-profit audit guide (as for-profit recipient awards are not

covered by the Single Audit Act).

We have supplemented our training and outreach with programmatic reviews of BTOP

operations. In FYs 2009 and 2010, our work focused on pre- and post-award processes for

BTOP. We audited NTIA’s implementation of the pre-award review to ensure an effective and

fair application and award process. We followed this with an audit of the post-awards operations

and processes to assess whether NTIA has appropriate plans in place to monitor BTOP award

recipients. As part of our comprehensive Recovery Act oversight efforts we reviewed cross-

                                                            
4
  The Single Audit Act Amendments of 1996 established uniform audit requirements for state, local, and tribal 
governments and nonprofit organizations receiving federal financial assistance. 

                                                               8 
 
cutting issues that affect all Department operating units receiving Recovery Act funds. (See

Appendix B for a detailed overview of our FY 2009–2010 BTOP oversight).


NTIA Monitoring of BTOP Awards


According to NTIA, it plans to take a comprehensive award oversight approach for program

monitoring and assessment of its operations. Its monitoring plan involves activities such as desk

reviews, site visits, program report reviews, and drawdown reviews. (See Table 3 for more

detailed BTOP monitoring plans.)


                                Table 3. NTIA Plans for Monitoring BTOP

NTIA Monitoring Function                                             Primary Activities 

Program Support                           •   Technical assistance—to respond to project‐specific questions and  
Provided by the NTIA program office           develop fact sheets and other guidance for posting on NTIA’s website 
and BTOP senior leadership to assist      •   Investigation—of program issues 
both the program and recipients           •   Policy and guidance— for best practices (e.g., recipients’ manual) 
address policy, legal, organizational,    •   Inquiry management—to address questions from nonrecipients 
financial, and technical hurdles that     •   Other—to encourage interagency support and communications   
arise during the program  
Individual Grant Monitoring               •   Desk reviews—to monitor activities and reports, as well as  
Provided by NTIA program office,              recipient progress, compliance with federal requirements,  
their support staff, and the grants           and recipient‐reported outcomes 
office to provide regular oversight       •   Site visits—by program and grants office staff, to evaluate the  
of the project and grant recipient            current project status and recipient ability to meet goals 
                                          •   Drawdown of funds—to ensure recipients are drawing down funds 
                                              consistent with progress 
                                          •   Program report reviews—a shared responsibility of the program office  
                                              and grants office, to review recipient reports (including Recovery Act  
                                              reports, financial reports, and performance progress reports)  
Portfolio Management                      •   Risk assessment—to review potential recipient risks of not achieving  
Provided by NTIA program office               intended project objectives 
and BTOP senior leadership to             •   Waste , fraud, and abuse prevention—effective internal controls  
provide high‐level evaluation of              to ensure funds are used for authorized purposes only 
performance metrics, evaluate             •   Issue escalation and resolution—to provide additional information (e.g., 
variances between project                     audit reports) for monitoring as well as any investigative actions  
performance and baseline plan,            •   Analyze performance versus plan—to identify corrective actions 
and resolve issues affecting               
multiple projects  
Source: OIG, derived from NTIA data



                                                        9 
 
NTIA has completed initial desk reviews and assignment of risk levels for all BTOP awards; site

visits will commence in March 2011. To establish monitoring levels for the recipients, NTIA

looks at award drawdown amounts, whether the recipient has been placed on a reimbursement-

only basis, and desk review findings/unresolved issues. Accordingly, recipients will receive

monitoring levels of standard, intermediate, or advanced that establish the oversight level they

are to receive. This risk-based approach is reasonable but NTIA, as it carries out oversight, must

continually reassess the risks associated with each grantee. NTIA has identified tools to guide

performance improvement, should performance issues arise. NTIA’s monitoring plans are based

on a projected funding level of approximately $20 million for FY 2011. 5


Current and Future OIG Oversight


Our oversight will continue to monitor BTOP program goal achievement and promote

compliance with statutory and programmatic requirements. However, what has been primarily a

proactive approach—based on outreach and program-wide issues—will transition to a more

strategic approach, including reviews of program-specific issues and reviews stemming from

complaints and identified risks.


Using an inherent risk assessment approach, we created a work plan to ensure the overall goals

of the Recovery Act are met. We will adapt our plan to circumstances as they arise. Our ongoing

and most recent oversight activities reflect this approach: we are currently performing an audit of

NTIA’s effectiveness in monitoring BTOP awards. This review will include an evaluation of

NTIA monitoring efforts of the 232 BTOP awards worth $3.9 billion, including the effectiveness

                                                            
5
  The Fourth Continuing Appropriations Act of 2011 (Public Law 111‐322) signed by the President on December 22, 
2010, provided funding to oversee the projects through March 4, 2011. Oversight was funded at $19.9 million for 
FY 2011.  


                                                               10 
 
of desk reviews and adequacy of site visits. In response to a complaint and request for

investigation, we are performing a review of an infrastructure grant award to a San Francisco

Bay area recipient.


Future OIG oversight activities will include the following:

       •      Assess NTIA’s oversight of the Booz Allen Hamilton contract that supports BTOP

              implementation (and audit claims made under the contract);

       •      Identify high-risk projects to determine whether they are on schedule, stay within costs,

              and provide appropriate technologies to meet program objectives;

       •      Submit recipient information to the Recovery Operation Center 6 to screen recipients

              using risk models to determine where to focus our audit efforts;

       •      Perform award-specific reviews in response to credible complaints regarding significant

              issues;

       •      Review audit reports prepared by independent accountants to determine whether audit

              findings result in disallowed costs that should prompt return to the Department of

              Treasury;

       •      Conduct site visits to observe the performance of BTOP projects (and assess whether the

              technology implemented is fully operational and meets grant terms); and

       •      Review programmatic issues, such as recipient match, that will likely impact multiple

              awards.


Based on our experience with other Department grant programs, our primary concerns include

recipient matching funds, especially the existence and availability of the match. BTOP recipients
                                                            
6
  The Recovery Operations Center was developed by the Recovery Accountability and Transparency Board to assist 
in the oversight efforts of Recovery Act funds. The center uses open source records such as GSA’s Excluded Parties 
List System to identify risk factors associated with specific grants. 

                                                               11 
 
had a minimum requirement of a 20 percent match to the $3.9 billion awarded—and actually

committed over $1.4 billion, or 26 percent, to the total project cost of $5.3 billion.


We are also concerned about the valuation of the matching funds. When the matching share takes

the form of equipment (or services other than cash), it is important that the matching share

contribution has been valued correctly. For example, equipment should be contributed to a

federal award at the lower amount between cost and its fair market value. Equipment cannot

include the profit margin normally associated with selling new equipment to the government.


BTOP Grants and Potential Fraud Schemes


OIG foresees the potential for BTOP program fraud within three identified risk categories: false

claims, product substitution/substandard product, and subcontracting. We base these BTOP risk

categories on our own knowledge and experience in dealing with fraud schemes involving other

Department grant programs—in addition to discussions we initiated with the Department of

Justice and other OIGs to share experiences and lessons learned from cases involving similar

programs. The risk categories are:



1. False claims. An entity funded by a government grant often has access to a line of credit

    allowing for an advance drawdown of project funds. The entity then submits, retroactively, a

    quarterly report that provides only general information regarding the financial status of the

    grant and its accompanying line of credit, resulting in very little opportunity for the

    government to monitor specific claimed expenses. Typical grant fraud schemes involve the

    charging of expenses not related to grant activities or the charging nonexistent expenses, such

    as:


                                                 12 
 
    •   labor for unrelated projects,

    •   disproportionate overhead,

    •   nonexistent match funds, or

    •   unauthorized consulting and legal fees.



2. Product substitution/substandard products. As BTOP focuses on infrastructure build-out,

    we might encounter fraud schemes similar to those commonly found in construction projects

    such as highways and buildings. Examples of such schemes can include:

    •   supplied materials or equipment not meeting the specification requirements for a project;

    •   materials supplied from foreign countries where “Made in the USA” is required;

    •   cost-cutting design schemes such as burying cable at four feet when the project required

        six; or

    •   departure from the specified construction plan, such as laying 300 miles of cable where

        350 was proposed.



3. Subcontracting. We anticipate that only a small percentage of subcontractors under BTOP

    projects will have significant experience in federal contracting—and that there will be little

    in terms of performance history from which the government can draw when providing

    oversight of many businesses subcontracting under BTOP grants. We believe risk exists

    within the subcontracting arena for:




                                                  13 
 
    •   anticompetitive practices such as price-fixing,

    •   conflicts of interest, and

    •   hidden related-party transactions (such as bribes, gratuities, or kickbacks).


In conclusion, Mr. Chairman, for FY 2011 and beyond, BTOP presents challenges to both NTIA

and OIG. BTOP’s mission is as ambitious as its implementation has proven complex. For the

Department to continue effective oversight, OIG and NTIA will require Congress as a steadfast,

supporting partner. This concludes my prepared statement, and I will be pleased to respond to

any questions you or other Subcommittee members may have.




(OIG-11-019-T)


                                                 14 
 
                                                 Appendix A:

       OIG Compliance and Fraud Awareness Training Sessions for BTOP

                                                                                       Number       Attendees 
Training                                         Description 
                                                                                       of Events     Trained 

                         Provided to NOAA and NIST grants management 
                         offices, this training outlined the major responsibilities 
Transparency and 
                         for overseeing grants, provided indicators for high‐risk 
Accountability in                                                                          3           91 
                         recipients and considerations for monitoring them, 
Grants Management 
                         performance measurement requirements, and single 
                         audit requirements. 
                         Presented with NTIA program management as part of 
Transparency and 
                         a workshop roll‐out effort to potential applicants and 
Accountability in                                                                         21          2,383 
                         grant recipients, this training provided an overview of 
Broadband Grants 
                         the federal government audit requirements. 
                         At the request of NTIA, OIG‐provided workshops 
First‐Time Recipient 
                         attended by both program staff and recipients covered 
Issues and Subrecipient                                                                    3           214 
                         specific subjects including first‐time recipient issues 
Monitoring  
                         and subrecipient monitoring.  
                         Presented with the Department of Justice, the training 
                         for NOAA and NIST grants management focused on 
                         identifying and avoiding procurement and grant fraud 
Fraud Indicators                                                                           6           144 
                         using scenarios or other activity indicators, criminal 
                         and civil fraud statutes, and Recovery Act hotline 
                         information and whistleblower requirements. 
                          Provided to BTOP grant recipients, this training 
                          offered an overview of fraud prevention techniques, 
                          examples of fraud scenarios, how to report suspected 
                          fraud, detailed guidance on appropriate grant 
Fraud Prevention                                                                           2           549 
                          activities, information on how to have open 
                          communications with agency representatives, and 
                          whistleblower requirements and how to communicate 
                          with the OIG.  
Source: OIG


 




                                                         15 
 
                                  Appendix B:
            Reports Issued by OIG in FY 2009–2010 Concerning BTOP
•   In NTIA Must Continue to Improve Its Program Management and Pre-Award Process for its

    Broadband Grants Program (ARR-19842-1, April 8, 2010), we aimed to (1) assess how

    effectively NTIA was implementing BTOP, (2) evaluate the proposal pre-award review

    measures that NTIA took to ensure an effective and fair application and award process, and

    (3) evaluate the integrity and reliability of the online application system. We identified

    concerns with staffing levels to adequately handle applications and the post-award process;

    the inadequacy of documented procedures and key management decisions; problems

    encountered with the application intake system; and difficulties encountered with the first-

    round application process. We communicated our interim process for this review in a January

    2010 letter outlining these concerns to the chairwoman and ranking member of the

    subcommittee on Commerce, Justice, Science, and Related Agencies, Committee on

    Appropriations, U.S. Senate.



•   For Broadband Program Faces Uncertain Funding, and NTIA Needs to Strengthen Its Post-

    Award Operations (OIG-11-015-A, November 4, 2010), our objectives were to (1) assess

    NTIA’s system capabilities for monitoring BTOP award recipients; (2) determine whether

    NTIA established post-award operations and processes for an effective execution of BTOP;

    and (3) evaluate whether NTIA is taking appropriate steps to implement a program office to

    perform the essential post-award oversight and monitoring of BTOP recipients, including

    post-September 30, 2010. We found uncertainty about future funding for monitoring of

    BTOP awards, which would hinder NTIA’s long-term oversight of grants. The report also



                                                 16 
 
    identified program areas for strengthening internal controls, IT program expertise within

    BTOP program offices, training, and monitoring of awards and agreements.



•   In addition, OIG’s comprehensive Recovery Act oversight produced several other reports

    touching on BTOP:


       o Our NTIA Should Apply Lessons Learned from Public Safety Interoperable

           Communications Program to Ensure Sound Management and Timely Execution of

           $4.7 Billion Broadband Technology Opportunities Program (ARR-19583, April

           2009) translated our Public Safety Interoperable Communications (PSIC) program

           audit work into valuable lessons learned as BTOP emerged.


       o In Commerce Has Implemented Operations to Promote Accurate Recipient

           Reporting, but Improvements Are Needed (ARR–19847, November 2009), we

           examined whether bureau processes would adequately identify and remediate

           material omissions and significant data errors—and identified improvements the

           Department and its operating units should make to data quality policies and

           procedures.


       o More Automated Processing by Commerce Bureaus Would Improve Recovery Act

           Reporting (ARR−19779, December 2009) looked at the adequacy of key IT and

           operational controls to determine whether those controls ensure that the Commerce

           reports posted on Recovery.gov are complete, accurate, and reliable. Generally, the

           11 Commerce systems we reviewed had adequate data input/edit controls, but we




                                                17 
 
       found a lack of automation from the three bureau grant systems to CBS that could

       have potentially led to errors.


    o Finally, at the request of the Recovery Accountability and Transparency Board, we

       conducted a government-wide survey to determine whether offices awarding and

       administering Recovery Act‐funded contracts and grants had the proper staffing,

       qualifications, and training (Review of Contracts and Grants Workforce Staffing and

       Qualifications in Agencies Overseeing Recovery Act Funds, March 2010)—and

       reported on the recommendations applicable to the Department of Commerce (Review

       of Recovery Act Contracts and Grants Workforce Staffing and Qualifications at the

       Department of Commerce; ARR-19900, September 2010).




                                          18 
 
